CERTIFICATE OF SERVICE
No. 20-1110
SANDOZ INC., SANDOZ INTERNATIONAL GMBH, SANDOZ GMBH,
Petitioners,
v.
IMMUNEX CORP., AMGEN MANUFACTURING, LTD.,
Respondents.
I, Constantine L. Trela, Jr., do hereby certify that, on this twenty-fourth day
of February, 2021, I caused an electronic copy of the letter requesting an extension of
time within which to file a response to the petition for a writ of certiorari in the
foregoing case to be served by email on the following:
WILLIAM MCGINLEY JAY
Goodwin Procter, LLP
1900 N Street, N.W.
Washington, D.C. 20036
(202) 346-4000
WJay@goodwinlaw.com
Counsel for Petitioners
/s/ Constantine L. Trela, Jr.
CONSTANTINE L. TRELA, JR.
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000

